processed and how the cases are tracked in the Pending Case List (PCL) module of the Judicial
Case Management System (JCMS).

        We obtained databases of ALJ decisions in which exceptions were filed that were
assigned to counsel during FY 2006, issued during FY 2006, and pending as of October 1, 2006.
We reviewed Board decisions and ALJ decisions for data that was not contained in JCMS. From
this data, we computed statistics and time periods related to the contested ALJ decisions. We
analyzed Board reports and databases for FY 2006 to determine whether cases were being held
pending cases that were received more recently.

        We conducted this review from January through July 2007. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


BACKGROUND

        After a ULP charge is filed at one of the National Labor Relations Board's 51 field
offices, a case is opened and investigated by a Board agent. If the investigation determines that a
violation of the NLRA did not occur, the case is dismissed by the Regional Director, absent
withdrawal. If the case is deemed meritorious, the Regional Director issues a complaint.
Throughout the life of a case, the goal is to have the parties settle the case without a hearing.
Approximately 97 percent of all meritorious cases were settled without a hearing during FY
2006. If the parties cannot reach an agreement, the Regional Office prosecutes the case before
an ALJ. The ALJ then issues a decision that is filed with the Board.

        The parties, including the General Counsel, are permitted under the NLRA to file
exceptions to the ALJ decision. Although the General Counsel does not represent the charging
party, the interests of the General Counsel and the charging party are usually aligned. If no
exceptions are filed, the ALJ decision automatically becomes the Board's decision and order. If
exceptions are filed, the Board will review the case record and issue a decision in which it may
adopt, modify, or reject the findings and recommendations of the ALJ. Any party, except the
General Counsel, may seek review of the Board's decision in the U.S. Court of Appeals.

         Board casehandling data is maintained in PCL, which provides real-time reports showing
the status of any cases before the Board. OES also regularly prepares an internal memorandum
that lists potential Board agenda issues and lead cases, known as the Lead Case List. The list
enumerates and categorizes by issue cases that have been identified as presenting major issues by
OES and the Triage Committee, which is made up of the Deputy Chief Counsels, the Executive
Secretary, Director of the Office of Representation Appeals, and the Solicitor. The list presents
ULP and Representation cases by issues, including a brief narrative description of the issue and
the status, and a listing of cases previously appearing on the list that have been decided. The list
is distributed to the Board, Chief Counsels, and the Triage Committee.

       The Board received 258 contested ULP cases during FY 2006. Of these, 143 resulted
from contested ALJ decisions. Approximately 88 percent of the contested ALJ decisions were



                                                 2
CA cases, which are filed against employers and include allegations such as threatening job loss
or plant closure if employees join or vote for a union. Ten percent were CB cases, which are
charges against a union and include a failure to fairly represent members. CC cases comprised 1
percent of the cases received and are filed against a union and include allegations of secondary
boycotts. CE cases were also approximately 1 percent of the cases received and involve
allegations that a union and an employer have agreed that employees are not required to work on
goods for an employer designated by a union as unfair, which can be filed against both unions
and employers.

       The Board issued decisions in 324 contested ULP cases during FY 2006, of which 225
were contested ALJ decisions. These cases took on average 629 days to issue. On October 1,
2006, 267 contested ULP cases were pending before the Board. Contested ALJ decisions
accounted for 226 of the contested ULP cases pending. On average, the contested ALJ decisions
were pending 917 days from the assignment of counsel. The average processing time for the
cases pending on October 1, 2006, was greater than the time to issue a decision during FY 2006
by more than 9 months.


RESULTS

Casehandling Factors

Parties Filing Exceptions

        Only one of the parties filed exceptions in 165 of the 225 cases issued during FY 2006
and 151 of the 226 cases pending as of October 1, 2006. The average time to issue a decision
varied by the party who filed the exceptions, but for the pending cases the time did not, except
for an insignificant number of cases in which a union was a respondent. The average times from
assignment when one party filed exceptions are shown in the following table.

                                Exceptions Filed by One Party

             FY 2006                       Issued Decisions                  Pending Cases
Party Filing Exceptions                Number      Average Days         Number     Average Days
Employer (as respondent)                134            564               125          919
Charging Party / General Counsel         23            432                23          953
Union (as respondent)                     8            429                 3          178
Total                                   165            539               151          909

        A more significant variation existed for issued decisions, but not pending cases, when
multiple parties filed exceptions to an ALJ decision. For the issued decisions, the time increased
significantly when more than one party filed an exception. The amount of time for pending
cases, however, did not fluctuate significantly when one or multiple parties filed exceptions. The
times are shown in the following table.




                                                3
                             Number of Parties Filing Exceptions

                FY 2006                        Issued Decisions             Pending Cases
Party Filing Exceptions                    Number Average Days         Number Average Days
One Party                                   165         539             151         909
Multiple Parties with Aligned Interests      15         813              18         838
Multiple Parties with Opposing Interests     45         895              57         964
Total                                       225         629             226         917

Case Type

        ULP charges are given a case type based on the subsection of the NLRA alleged to be
violated. CA cases accounted for 92 percent of the decisions issued during FY 2006 and 91
percent of the cases pending as of October 1, 2006. The remainder were CB, CC, and CE cases.
On average, CA cases, which are charges against employers, took the longest time to issue and
were generally pending the longest time, as shown in the table below.

                            Contested ALJ Decisions by Case Type

        FY 2006                      Issued Decisions                   Pending Cases
Case Type                       Number       Average Days          Number    Average Days
CA                               207               649              206           942
CB                                16               371                6           370
CC                                 2               527               11           733
CE                                 0                 0                3           962
Total                            225               629              226           917

Charging Party

       Approximately 78 percent of the decisions issued during FY 2006 and 83 percent of the
cases pending on October 1, 2006, were the result of charges filed by unions, with the remainder
being charges filed by individuals, employers, or a combination of parties. Cases in which a
union was a charging party took the longest time to issue and were generally pending the longest
time on average, as shown in the following table.

                          Contested ALJ Decisions by Charging Party

         FY 2006                     Issued Decisions                   Pending Cases
Charging Party                  Number       Average Days          Number    Average Days
Union                            176               653              188           963
Individual                        37               490               10           676
Individual and Union               7               914               11           668
Employer                           5               381               15           677
Employer and Individual            0                 0                1           656
Employer and Union                 0                 0                1         1,389
Total                            225               629              226           917


                                               4
Types of Allegations

       ULP charges allege at least one violation of a subsection of the NLRA. As the number of
subsections of the NLRA alleged increased, the time for cases to issue during FY 2006 generally
increased. For pending cases, the time did not vary significantly, with the exception of an
increase between one and two types of allegations. The times are shown in the following table.

                                      Types of Allegations

          FY 2006                  Issued Decisions                  Pending Cases
    Types of Allegations      Number      Average Days          Number      Average Days
    One type                     66             574               52            776
    Two types                   114             610              117          1,050
    Three types                  31             812               46            767
    Four or more types           14             632               11            807
    Total                       225             629              226            917

Appended Opinion

        The time to issue a decision varied when a separate opinion, either concurring or
dissenting, was appended to the majority decision. The 64 decisions with appended opinions
took on average 728 days from assignment to issuance, compared with 589 days for the decisions
in which no opinion was appended. Dissenting opinions accounted for 57 of the 64 decisions
with separate opinions. Staff noted that dissenting opinions are usually written toward the end of
the process, and they are circulated to the other Board members, which adds time to issuing the
Board decision. Additionally, the dissenting opinions at times cause the majority Board
members to rewrite or modify the Board decision to address the issue discussed in the appended
opinion. Staff also stated that the number of dissenting opinions has increased significantly in
recent years.

Disposition

       The time to issue a decision increased when the Board decision modified the ALJ
decision. The 99 decisions that affirmed the ALJ decision took on average 398 days. The
decisions that differed to some degree, such as being "affirmed as modified," from the ALJ
decision took on average 787 days, which was nearly double that time. Cases remanded to the
ALJ took on average 998 days.

Lead Cases

        The average time to issue a decision was significantly longer for the cases that were listed
on the Lead Case List. During FY 2006, 11 cases on the Lead Case List were issued. These
cases took on average 1,145 days, compared with 602 days for cases not on the Lead Case List.
The average time for pending cases also increased significantly for the 43 cases that were listed
on the September 20, 2006 Lead Case List and were pending on October 1, 2006. These cases
were pending on average 1,312 days, compared with 824 days for cases that were not on the


                                                 5
Lead Case List. The Board's representatives stated that the length of delay in issuing lead cases
reflects the nature of the cases, which are non-routine and sometimes novel. Further, many of
these cases involve highly contested difficult issues and requests from the parties for the Board
to reexamine precedent. As a result, the Board is often confronted with the prospect of changing
the law, so the practice is to wait until the Agency has a full Board, or at least can obtain a three-
member majority. Long periods where the Board is at three members or is an evenly divided
four-member Board inevitably delay the issuance of lead cases. Additionally, lead cases often
have dissents and amici briefs.

        We identified no instances where a lead case was holding up cases received significantly
before the lead case. Earlier Lead Case Lists identified two major "Salting" cases and stated that
more than 40 "Salting" cases were pending. The OES database contained 41 cases with the
related issue code for "Salting." The cases on the Lead Case List were among the earliest that
dealt with the issue. On May 31, 2007, the Board issued a decision in Oil Capitol Sheet Metal,
Inc., one of the "Salting" cases on the Lead Case List. This case took 2,449 days to issue, as
compared with the most recent "Salting" case, which was pending for 647 days on that date.

Related Issue Codes

        OES assigns a numeric code to cases dealing with the same issue. The codes are known
as related issue codes. Forty-four related issue codes were assigned to cases that were pending
as of October 1, 2006. The three most common codes were "Salting" (41 cases), "No
Solicitation/No Distribution" (22 cases), and "Bargaining – Refusal to Provide Information" (15
cases). Approximately half of the cases pending were assigned at least one code.

        The average time a case was pending increased significantly for the cases that had a
related issue code. The 116 contested ALJ decisions categorized using a code were pending on
average 1,136 days, compared with 687 days for cases not having a code. As of October 1,
2006, "Salting" cases had been pending on average 1,591 days.

Cases Pending as of March 2, 2007

        The Staff Counsel's Guide divides the Board's processing time into three stages: Stage I,
which runs from assignment to staff counsel until the date of initial action, which is either a
subpanel or draft in lieu of subpanel. The subpanel is a screening function by which a tentative
position of the Board member is expressed by a staff supervisor or staff attorney representative.
Stage II runs from the end of Stage I until circulation of the draft decision to Board members for
approval. Stage III runs from the end of Stage II to clearance of the Board's decision.

        Of the 226 contested ALJ decisions pending at the end of FY 2006, 172 were still before
the Board on March 2, 2007. Approximately 41 percent of those cases were in Stage I, 23
percent were in Stage II, and 36 percent were in Stage III. The cases in Stage I had been pending
an average of 1,346 days, compared with 1,009 days for Stage II and 951 for Stage III. This
indicates that the cases moving quicker towards being issued were those that had been at the
Board for the shortest period of time. Approximately 66 percent of cases in Stage I dealt with
lead case issues.



                                                  6
